Office of Inspector General


November 30, 2011

MEMORANDUM

TO:                  USAID/Iraq Mission Director, Alex Dickie

FROM:                Office of Inspector General/Iraq, Director, Darren Roman /s/

SUBJECT:             Survey of USAID/Iraq‘s Awards and Subawards
                     (Report No. E-267-12-001-S)

This memorandum transmits our final report on the subject survey. While it is not an audit
report and we made no recommendations, we request that you keep us apprised of your
progress in implementing the required audits identified by the survey.

I want to thank you and your staff for the cooperation and courtesies extended to us during this
survey.




U.S. Agency for International Development
USAID/Iraq
Box 0047, Unit 6060
DPO, AE 09870-0047
www.usaid.gov/oig
SUMMARY
Each year, federal agencies award over a trillion dollars in contracts and financial assistance.
The Federal Funding Accountability and Transparency Act of 2006 (Public Law 109–282,
September 26, 2006) was enacted to increase the transparency of federal government
expenditures by providing access to information on federal awards through a single, searchable,
publicly available Web site. The act required the federal government to provide more user-
friendly and detailed information about government spending. Over 15 months, the act required
the Office of Management and Budget (OMB) to establish a public Web site that included data
on federal awards and subawards.1 In addition, the State Department issued the 2010
Quadrennial Diplomacy and Development Review, outlining several new initiatives for USAID,
including to ―make our aid more transparent by creating a new Web-based ‗dashboard‘ that will
publish data on State and USAID foreign assistance.‖

From March 2003 to June 2011, USAID/Iraq managed a portfolio of $6.72 billion that included:

    24 expired awards with total estimated costs of $4.95 billion
    15 awards active as of June 30, 2011, with total estimated costs of $1.77 billion

The objectives of this survey were to (1) compile and report data on USAID/Iraq awards, (2)
compile and report data on USAID/Iraq-funded subawards, and (3) determine whether recipients
of USAID awards have complied with applicable audit requirements for their subawardees.

The scope and methodology appear in Appendix I. In its management comments, the mission
confirmed that it will follow up on the implementation of required audits in two USAID programs.
The full text of management comments appears in Appendix II.




1
    The Web site is USASpending.gov.               Data is entered through a different Web site:
FederalReporting.gov. Individual transactions below $25,000 were excluded. In addition, the act
exempted any entity with gross income not exceeding $300,000 in the previous tax year from the
requirement to report subawards. Although technically USAID‘s Automated Directives System limits the
use of the terms ―awards and subawards‖ to assistance in the form of grants or cooperative agreements,
in this report we use the terms ―awards and subawards‖ to include all acquisition and assistance whether
in the form of contracts, grants, cooperative agreements, or subcontracts and subgrants.


                                                                                                      2
SURVEY RESULTS
USAID/Iraq Awards

As of June 30, 2011, USAID/Iraq managed a $1.76 billion program portfolio of 14 awards
(Table 1).2

Characteristics of the portfolio on that date included the following:

        Contracts outnumbered cooperative agreements.
           Nine contracts had estimated total costs of $1.34 billion.
           Five cooperative agreements had estimated total costs of $421 million.

        All of the USAID/Iraq implementers were U.S.-based organizations.

        The awards were provided for the following program areas—economic growth, democracy
        and governance, and capacity building.

        Democracy and governance programs predominated. Of the 14 awards, 8 supported
        democracy and governance programs in local governance, community action, elections
        support, legislative strengthening, and access to justice.

               Table 1. USAID/Iraq’s Active Awards as of June 30, 2011 (unaudited)

       Program                                                Estimated                    Start
                                                 Type of                    Obligations
No.    Area and              Implementer                     Total Costs                  and End
                                                 Award                      ($ million)
          Title                                               ($ million)                  Dates
Economic Growth
     Provincial
                                                                                          01/2008
 1   Economic            Louis Berger Group    Contract          174                138
                                                                                          01/2013
     Growth
                                                                                          05/2007
    2     Agribusiness   Louis Berger Group    Contract          170                150
                                                                                          08/2011
    Financial      AECOM International                                                    07/2010
    3                                          Contract            53               32
    Development    Development                                                            07/2015
Democracy and Governance
                   Research Triangle
    Local                                                                                 01/2009
 4                 Institute (RTI)             Contract          241                211
    Governance                                                                            06/2011
                   International
    Community                                  Cooperative                                10/2008
 5                 ACDI/VOCA                                       87               74
    Action                                     Agreement                                  09/2012
                   Cooperative Housing
    Community                                  Cooperative                                10/2008
 6                 Foundation (CHF)                                84               71
    Action                                     Agreement                                  09/2012
                   International


2
 We excluded from our analysis a $12 million contract to the QED Group because it focused on
monitoring and evaluation as opposed to program implementation.




                                                                                                3
          Program                                                Estimated                      Start
                                                  Type of                       Obligations
No.       Area and         Implementer                          Total Costs                    and End
                                                  Award                         ($ million)
            Title                                                ($ million)                    Dates
                       International Relief
        Community                              Cooperative                                     10/2008
    7                  and Development                               91                74
        Action                                 Agreement                                       09/2012
                       (IRD)
        Community                              Cooperative                                     10/2008
    8                  Mercy Corps                                   56                47
        Action                                 Agreement                                       09/2012
                       International
        Elections      Foundation for          Cooperative                                     09/2004
    9                                                               103               103
        Support        Electoral Systems       Agreement                                       09/2011
                       (IFES)
     Legislative       AECOM International                                                     10/2008
10                                             Contract              73                47
     Strengthening     Development                                                             03/2014
     Access to                                                                                 10/2010
11                     DPK Consulting          Contract              63                30
     Justice                                                                                   09/2013
Capacity Building
     National
                       Management                                                              07/2006
12 Capacity                                    Contract             339               339
                       Systems International                                                   07/2011
     Development
     Administrative    Management                                                              06/2011
13                                             Contract             151                50
     Reform            Systems International                                                   06/2015
     Primary
                       University Research                                                     03/2011
14 Health                                      Contract              75                39
                       Co.                                                                     03/2015
     Program
                           Total                                  1,760             1,405



USAID-Funded Subawards
Implementers of 10 of the 14 USAID-funded programs provided data on subawards
(subcontracts and subgrants) used to implement their programs.3 The descriptions of programs
are based on USAID/Iraq information. The item ―other life support‖ in the tables in this section
refers to awards provided for operational support other than security in maintaining working and
living arrangements for implementer staff—for example, housing, food, and water.

Provincial Economic Growth Program

The Provincial Economic Growth Program has several components. One component supports
nine indigenous and three international microfinance institutions with loan capital, training,
technical assistance, and other capacity building. A second component provides incentives to
private banks for lending to small and medium-sized enterprises nationwide. A third component
established 11 new small business development centers that provide training in business
management, budgeting, strategic planning, and other professional skills. The program also
launched an initiative to provide business and financial services to underserved youth. Another

3
  We excluded four USAID/Iraq awards from our subaward analysis because they were recent, and
implementers would have had limited time to provide subawards: (1) a $53 million contract to AECOM
International Development for financial development awarded in July 2010, (2) a $63 million contract to
DPK Consulting for improving access to justice awarded in September 2010, (3) a $151 contract to MSI
for administrative reform awarded in June 2011, and (4) a $75 million contract to University Research Co.
for primary health care awarded in March 2011.


                                                                                                       4
component, to strengthen the business enabling environment, builds the Government of Iraq‘s
capacity to develop and implement trade policies that meet international standards and treaty
obligations. The Provincial Economic Growth Program in Iraq is implemented by the Louis
Berger Group.

Characteristics of the fiscal year (FY) 2010 program subawards (Table 2) included the following:

      The program‘s subawards were composed primarily of subgrants to microfinance
      institutions.

      The program did not employ consultants during FY 2010.

      The program had a security subcontract for $17.9 million with Sallyport Global Services, a
      U.S.-based company.

    Table 2. Subawards of the Provincial Economic Growth Program Active During FY 2010
                                         (unaudited)

                   Number                      Largest                      Number               Nationality
                                Total of                      Type of
     Purpose         of                       Individual                      of
                               Awards ($)                     Awards                     Iraqi      U.S.       Other
                   Awards                     Award ($)                    Awardees

                                                                                           0          0          0
Program
                       0           NA             NA             NA             0
consultants*
                                                                                           0%         0%         0%


                                                            Firm-fixed-                   15          3          3
Program
                      34         1,861,781       408,152    price              21
subcontracts
                                                            contracts                     71%        14%        14%


                                                                                          12          0          0
Program
                      12        34,670,000     6,000,000    Standard           12
subgrants
                                                                                        100%          0%         0%


                                                            Fixed-fee,                     0          0          1
                                                            time and
Security               1        17,868,351    17,868,351                        1
                                                            materials
                                                            contract                       0%         0%       100%


                                                                                           0          0          0
Other life
        †              0           NA             NA             NA             0
support
                                                                                           0%         0%         0%

* Individuals hired for direct program implementation activities, rather than support activities.
†
    Data excluded 38 purchase orders under $10,000 totaling $200,437.




                                                                                                                     5
Agribusiness Program

USAID‘s primary activity in the Iraqi agricultural sector was the Agribusiness Program. The goal
of the program was to increase the competitiveness of Iraqi agriculture by demonstrating the
potential for profitable commercial agribusiness enterprises. The focus was on commodities
with the greatest potential to increase employment and gross revenue of farmers and
agribusiness. The Agribusiness Program was implemented by the Louis Berger Group.

Characteristics of the FY 2010 program subawards (Table 3) included the following:

    Of 21 subcontract recipients, 14 were Iraqi entities, as were all 29 subgrant recipients.

    The program did not provide awards for consultants during FY 2010.

    Program subgrants and subcontracts were about equally employed.

    The program had one primary security subcontract for $17.2 million with Sallyport Global
    Services. The program‘s life support subcontract for $4.6 million was also with Sallyport
    Global Services.

   Table 3. Subawards of the Agribusiness Program Active During FY 2010 (unaudited)

               Number                    Largest                                        Nationality
                           Total of     Individual     Type of      Number of
  Purpose        of
                          Awards ($)                   Awards       Awardees    Iraqi      U.S.       Other
               Awards                   Award ($)

Program                                                                           0          0          0
                   0          NA           NA             NA             0
consultants                                                                       0%         0%         0%

                                                     32 of the 35                14          3          4
Program                                              subcontracts
                  35       27,282,773    6,915,094                      21
subcontracts                                         were firm
                                                     fixed price                67%         14%        19%

                                                     2 fixed-                    29          0          0
Program                                              obligation
                  32       26,687,248    5,057,631                      29
subgrants                                            grants;
                                                     30 grants                  100%         0%         0%

                                                     Cost-plus-                   0          1          0
Security           1       17,166,451   17,166,451   fixed-fee           1
                                                     subcontract                  0%      100%          0%

                                                     Cost-plus-                   0          1          0
Other life
                   1        4,627,440    4,627,440   fixed-fee           1
support
                                                     subcontract                  0%      100%          0%




                                                                                                            6
Local Governance Program

The third phase of the Local Governance Program supported implementation of Iraq‘s new
Provincial Powers Act. The program was designed to build the capacity and strengthen the
performance of local government institutions in representing citizen priorities, planning for public
investment in the provinces, executing provincial budgets, and holding service providers
accountable. The Local Governance Program III in Iraq was implemented by RTI International.

Characteristics of FY 2010 program subawards (Table 4) included the following:

    The program had four subcontracts, each valued at between $1 million and $2 million, with
    International City/County Management Association, Creative Associates International, MSI,
    and VNG International; the first three are American companies, and VNG International is
    from the Netherlands. MSI is also a prime contractor for USAID/Iraq, implementing the
    National Capacity Development Program.

    The program had one security subcontract for $23.4 million with G4S Risk Management
    Limited, a company from the United Kingdom.

Table 4. Subawards of the Local Governance Program Active During FY 2010 (unaudited)

               Number                    Largest                     Number             Nationality
                           Total of                    Type of
   Purpose       of                     Individual                     of
                          Awards ($)                   Awards                   Iraqi      U.S.       Other
               Awards                   Award ($)                   Awardees
                                                     1 consulting                 0          1          1
Program                                              agreement;
                   2          68,942        66,742                      2
consultants                                          1 purchase
                                                     order                        0%        50%        50%

                                                     Time and                     0          3          1
Program
                   4       5,404,697     1,929,053   materials          4
subcontracts
                                                     contracts                    0%        75%        25%

                                                                                  0          0          0
Program
                   0          NA           NA             NA            0
subgrants                                                                         0%         0%         0%

                                                     Time and                     0          0          1
Security*          1      23,407,089    23,407,089   materials          1
                                                     contracts                    0%         0%       100%

                                                                                  2          1          2
Other life                                           Fixed-price
        †          6       2,088,141      762,954                       5
support                                              contracts
                                                                                 40%        20%        40%


* Data excluded fixed-price subcontracts totaling $1,905,650 for the rental of armored vehicles from
various suppliers.
†
  Data excluded $4.4 million in facility leases and food and water purchases. Most subcontractors were
Iraqi firms, and most contracts were fixed-price contracts.




                                                                                                              7
Community Action Program

The Community Action Program facilitates the creation and training of community action groups
responsible for identifying and prioritizing community needs, mobilizing community and other
resources, and monitoring project implementation. The program also strengthens the capacity
of the lowest levels of local government to draw on the Government of Iraq‘s own resources to
meet community-identified needs. The Community Action Program also assists victims of
military operations in Iraq through the congressionally mandated Marla Ruzicka Iraqi War
Victims Fund. The Community Action Program is implemented by four organizations:
ACDI-VOCA, CHF, IRD, and Mercy Corps.

ACDI-VOCA Subawards. Characteristics of the FY 2010 program subawards for ACDI-VOCA
(Table 5) included the following:

    A predominate portion of the program was being implemented through subcontracts
    provided to Iraqi firms for small-scale infrastructure and supply-type projects.

    The one large subgrant of $1.7 million was provided to the International City/County
    Management Association for training of local government officials and community leaders.

                Table 5. ACDI-VOCA Subawards Active During FY 2010 (unaudited)

                  Number                  Largest                        Number            Nationality
                            Total of                     Type of
   Purpose          of                   Individual                        of
                           Awards ($)                    Awards                    Iraqi      U.S.       Other
                  Awards                 Award ($)                      Awardees

                                                                                    41          1          2
Program                                               All fixed-price
                     44      838,050        36,020                         44
consultants                                           contracts
                                                                                   93%          2%         5%

                                                                                   193          0          1
Program                                               All fixed-price
                    201    15,086,808       99,500                        194
subcontracts*                                         contracts
                                                                                   99%          0%         1%

                                                      Cost-                          0          1          0
Program
                      1     1,726,597    1,726,597    reimbursable          1
subgrants                                                                            0%      100%          0%
                                                      grant

                                                                                     1          0          5
        †                                             All fixed-price
Security             11     1,599,449      404,400                          6
                                                      contracts
                                                                                   17%          0%        83%

                                                                                     0          1          0
Other life                                            All fixed-price
        ‡             5      219,221        71,820                          1
support                                               contracts
                                                                                     0%      100%          0%


* Data excluded 135 subcontractors with the contract amount below $10,000.
†
  Data excluded seven security contracts with the contract amount below $25,000.
‡
  Data excluded 122 subcontractors with the contract amount below $25,000.




                                                                                                                 8
Cooperative Housing Foundation Subawards. Characteristics of the FY 2010 program
subawards for CHF International (Table 6) included the following:

    A predominate portion of the program was being implemented through subcontracts
    provided to Iraqi firms for small-scale infrastructure and supply-type projects.

    The program did not employ consultants during FY 2010.

    The one large subgrant of $1.3 million was provided to the International City/County
    Management Association for training of local government officials and community leaders.

    The one large security subcontract for $16.5 million was to the Unity Resources Group, an
    Australian company.

             Table 6. CHF International Subawards Active During FY 2010 (unaudited)

                  Number                  Largest                     Number            Nationality
                            Total of                    Type of
   Purpose          of                   Individual                     of
                           Awards ($)                   Awards                  Iraqi      U.S.       Other
                  Awards                 Award ($)                   Awardees

                                                                                  0          0         0
Program
                      0             0       NA            NA             0
consultants
                                                                                  0%         0%        0%

                                                                                123          0         0
Program                                               All
                    220      9,183,099      123,042                    123
subcontracts*                                         subcontracts
                                                                                100%         0%        0%

                                                                                  0          1         0
Program
                      1      1,343,918    1,343,918   Subgrant           1
subgrants
                                                                                  0%      100%         0%

                                                      Modified                    0          0         1
                                                      time and
Security              1     16,533,098   16,533,098                      1
                                                      materials
                                                      contract                    0%         0%       100%

                                                                                  2          0         2
Other life                                            All
                      4       439,984       174,780                      4
support                                               subcontracts
                                                                                50%          0%       50%

* Data excluded 50 subcontracts below $10,000, totaling $422,068.




                                                                                                              9
International Relief and Development Subawards. Characteristics of the FY 2010 program
subawards for IRD (Table 7) included the following:

    A predominate portion of the program was being implemented through subcontracts
    provided to Iraqi firms for small-scale infrastructure and supply-type projects.

    The program did not employ consultants during FY 2010.

    The two large security subcontracts active during FY 2010 were provided to Sabre
    International, an Iraq-based company, for $34.4 million and to Sallyport Global Services for
    $1.6 million.

                Table 7. IRD Subawards Active During FY 2010 (unaudited)

               Number                   Largest                      Number            Nationality
                          Total of                    Type of
   Purpose       of                    Individual                      of
                         Awards ($)                   Awards                   Iraqi      U.S.       Other
               Awards                  Award ($)                    Awardees

                                                                                 0          0          0
Program
                   0         NA           NA             NA             0
consultants
                                                                                 0%         0%         0%

                                                                               101          1          0
Program                                             All
                 472      22,474,357    1,882,000                     102
subcontracts                                        subcontracts
                                                                               99%          1%         0%

                                                                                 2          0          0
Program
                   2        188,332       96,832    Subgrants           2
subgrants
                                                                               100%         0%         0%

                                                    1 indefinite-
                                                    quantity                     1          1          0
                                                    contract;
Security           2      35,984,924   34,406,149                       2
                                                    1 firm-fixed-
                                                    price                      50%        50%          0%
                                                    contract

                                                                                 6          0          0
Other life
                  10        402,649       89,250    All leases          6
support
                                                                               100%         0%         0%




                                                                                                           10
Mercy Corps Subawards. Characteristics of the FY 2010 program subawards for Mercy Corps
(Table 8) included the following:

    A predominate portion of the program was being implemented through subcontracts
    provided to Iraqi firms for small-scale infrastructure and supply-type projects.

    The program did not employ consultants during FY 2010 with one minor exception.

    The program did not employ a security subcontractor.

                Table 8. Mercy Corps Subawards Active During FY 2010 (unaudited)

                   Number                 Largest                     Number            Nationality
                             Total of                   Type of
   Purpose           of                  Individual                     of
                             Awards                     Awards                  Iraqi      U.S.       Other
                   Awards                  Award                     Awardees

                                                                                  1          0         0
Program
                       1       19,270      19,270     Supply             1
consultants
                                                                                100%         0%        0%

                                                                                148          0         2
Program                                               All
                     209    14,043,439    451,087                      150
subcontracts*                                         subcontracts
                                                                                99%          0%        1%

                                                                                  0          0         0
Program
                       0       NA           NA             NA            0
subgrants
                                                                                  0%         0%        0%

                                                                                  0          0         0
Security               0       NA           NA             NA            0
                                                                                  0%         0%        0%


                                                      6 service                  11          0         2
Other life
        †             17      450,281      95,899     contracts;        13
support
                                                      11 leases                 85%          0%       15%


* Data excluded 13 contracts below $10,000 totaling $88,886.
†
  Data excluded four lease agreements below $10,000 totaling $29,601 and three preferred supplier
agreements totaling $12,684.




                                                                                                           11
Elections Support Program

The Elections Support Program focused on providing long-term technical electoral assistance to
Iraq's Independent High Electoral Commission to strengthen the institution‘s responsiveness
and implementation capacity. This assistance included drafting election laws and regulations;
developing voter registration processes and procedures; improving the quality of information
technology and data; expanding management capabilities; training national and governorate
elections staff; assisting with ballot design and production; and facilitating election logistics,
planning, and operations. The Elections Support Program in Iraq was implemented by IFES.

The program had very few subawards (Table 9), with the exception of a security subcontract for
$27.3 million provided to GardaWorld, a Canadian company.

Table 9. Subawards of the Elections Support Program Active During FY 2010 (unaudited)

                Number      Total of     Largest                     Number            Nationality
                            Awards      Individual     Type of
   Purpose        of                                                   of
                                                       Awards                  Iraqi      U.S.       Other
                Awards        ($)       Award ($)                   Awardees

                                                                                 1          0          1
Program                                              Services
                   2           33,534      18,000                      2
consultants                                          subcontracts
                                                                               50%          0%        50%

                                                                                 0          0          0
Program
                   0          NA           NA            NA            0
subcontracts
                                                                                 0%         0%         0%

                                                                                 0          0          0
Program
                   0          NA           NA            NA            0
subgrants
                                                                                 0%         0%         0%


                                                     Time and                    0          0          1
Security           1       27,260,271   27,260,271   materials         1
                                                     subcontract                 0%         0%       100%

                                                                                 0          1          0
Other life                                           Fixed-price
                   2         195,175      104,457                      1
support                                              contracts
                                                                                 0%      100%          0%




                                                                                                           12
Legislative Strengthening Program

Established at the request of senior leaders of the Government of Iraq‘s Council of
Representatives, the USAID Legislative Strengthening Program was designed to increase the
capacity of the staff and members of the Council of Representatives. Specifically, the program
builds capacity to debate laws in a formal constructive environment, form and run parliamentary
committees, analyze and properly consider proposed legislation, improve the functioning of the
Council of Representatives‘ Presidency Council, improve the ability of parliament to oversee the
executive branch, review and analyze the national budget, and bring the national government
closer to constituents in the provinces. The Legislative Strengthening Program in Iraq is
implemented by AECOM International Development.

The program‘s subawards (Table 10) included eight consultant agreements totaling nearly
$500,000; two subcontracts totaling $2.4 million ($2.3 million was to MSI); and one security
subcontract for $4.9 million provided to Sallyport Global Services.

  Table 10. Subawards of the Legislative Strengthening Program Active During FY 2010
                                      (unaudited)

               Number                 Largest                                         Nationality
                         Total of                    Type of      Number of
  Purpose        of                  Individual
                        Awards ($)                   Awards       Awardees    Iraqi      U.S.       Other
               Awards                Award ($)

                                                                               0           4          4
Program                                           Consultant
                 8        497,856      119,967                        8
consultants                                       agreements
                                                                               0%        50%         50%

                                                  1 fixed-price
                                                  subcontract;                 0           2          0
Program
                 2       2,370,161   2,311,817    1 cost-plus-        2
subcontracts
                                                  fixed-fee                    0%       100%          0%
                                                  subcontract

                                                                               0           0          0
Program
                 0         NA           NA             NA             0
subgrants
                                                                               0%          0%         0%

                                                  Time and                     0           1          0
                                                  materials,
Security         1       4,894,765   4,894,765                        1
                                                  fixed-price
                                                  contract                     0%       100%          0%

                                                                               0           0          0
Other life
                 0         NA           NA             NA             0
support
                                                                               0%          0%         0%




                                                                                                          13
National Capacity Development Program

The National Capacity Development Program sought to increase the effectiveness of
government ministries through reforming internal operational systems and instituting best
practices and international standards. The program developed public management skills,
improved operating systems, and institutionalized training activities at the national and provincial
levels. Core public administration areas included contract and procurement management,
human resource management, project management, leadership and communication, strategic
planning, and information technology. The program worked with 11 ministries and Government
of Iraq Executive Offices, including the Presidency Council, the Prime Minister‘s Office, the
Offices of the Deputy Prime Ministers, and the General Secretariat for the Council of Ministers.
The program worked in collaboration with the Ministry of Planning to facilitate the completion of
Iraq‘s National Development Plan. The National Capacity Development Program was
implemented by MSI.

Characteristics of the FY 2010 program subawards for MSI (Table 11) included the following:

   Seven subcontracts were valued at over $1 million.
      $11.1 million to Cardno Emerging Markets USA
      $8.5 million to Louis Berger Group
      $8.4 million to American-Mideast Educational and Training Services, Inc. (AMIDEAST)
      $5.4 million to RTI International
      $3.3 million to The Kaizen Company
      $1.8 million to Telecom Telematique
      $1.5 million to National Academy of Public Administration

   The subcontracts valued at over $1 million all went to U.S.-based companies. Three of the
   companies—Cardno Emerging Markets USA, Louis Berger Group, and RTI International—
   are also prime contractors for USAID/Iraq.

   The program had one primary security subcontract for $76 million provided to Sallyport
   Global Services, along with a small subcontract awarded to a local organization. The
   program‘s life support subcontract for $43.5 million was also provided to Sallyport Global
   Services.




                                                                                                 14
                 Table 11. Subawards of the National Capacity Development Program
                                 Active During FY 2010 (unaudited)
                    Number                 Largest                          Number            Nationality
                              Total of                    Type of
     Type             of                  Individual                          of
                             Awards ($)                   Awards                      Iraqi      U.S.       Other
                    Awards                Award ($)                        Awardees

                                                                                        1         12          6
Program                                                                †
                      25        901,405      93,500    Subcontracts           19
consultants*
                                                                                        5%        63%        32%

                                                       57 of 74                       17          16         10
Program                                                subcontracts
             ‡        74     52,248,453   11,139,791                          43
subcontracts                                           were firm fixed
                                                       price                          40%         37%        23%

                                                                                        0          0          0
Program
                       0        NA           NA              NA                0
subgrants
                                                                                        0%         0%         0%

                                                       1 small firm-
                                                       fixed-price                      1          1          0
                                                       contract;
Security               2     75,984,784   75,972,184   1 time and              2
                                                       materials                      50%         50%         0%
                                                       contract for
                                                       $76 million

                                                       Time and                         0          1          0
Other life
                       1     43,526,635   43,526,635   materials               1
support
                                                       contract                         0%      100%          0%


*
  Data excluded one subcontract with a value of $8,526.
†
  MSI characterized the subcontracts as ―agreements of understanding based on not-to-exceed level of
effort workdays.‖
‡
  Data excluded 42 subcontracts below $10,000 with a total value of $216,878.




                                                                                                              15
Compliance With Audit Requirements for Subgrants
USAID Automated Directives System (ADS) 591.3.2.1 states that ―foreign nonprofit
organizations, host governments, and subrecipients that expend $300,000 or more in USAID
awards (i.e., organizations that receive USAID funds either directly or through a prime
contractor or recipient) during their fiscal year, must have an annual audit conducted of those
funds.‖ As stated in ADS 591.3.3.2, USAID Contract Information Bulletin 90–12 requires that all
awards in excess of $500,000 be subject to a final closeout audit. As shown in Table 12,
implementers of five of the ten4 USAID-funded programs included in this survey awarded
subgrants during FY 2010. However, only two of the USAID programs—Provincial Economic
Growth and Agribusiness, both implemented by the Louis Berger Group—provided grants to
Iraqi nonprofit organizations of amounts that necessitated audits. According to information
provided by the implementer, the programs are in the process of implementing these audit
requirements.

The Provincial Economic Growth Program contractor identified 11 grants (out of 12) that
required audits. The program‘s implementation team in Iraq anticipates completing the audits
by early 2012. For the Agribusiness Program, the contractor identified 21 grants (out of 32) that
required audits. In October 2011, the program‘s implementation team reported that it had
contracted an audit firm based in Cairo to carry out the audits.

           Table 12. USAID-Funded Subgrants During Fiscal Year 2010 (unaudited)

        Program Area                     Number of         Total Grant                         Audit
No.                      Implementer                                          Nationality
          and Title                      Subgrants         Amount ($)                         Required
Economic Growth
    Provincial
                         Louis Berger
 1  Economic                                  12             34.7 million         Iraqi          Yes
                         Group
    Growth
                    Louis Berger
    2   Agribusiness                          32             26.7 million         Iraqi          Yes
                    Group
Democracy and Governance
    Local           RTI
 3                                             0                NA                 NA             NA
    Governance      International
    Community
 4                  ACDI/VOCA                  1              1.7 million         U.S.           No*
    Action
    Community       CHF
 5                                             1              1.3 million         U.S.            No
    Action          International
    Community
 6                  IRD                        2                 188,332          Iraqi           No
    Action
    Community
 7                  Mercy Corps                0                NA                 NA             NA
    Action
    Elections
 8                  IFES                       0                NA                 NA             NA
    Support

4
  As in the previous section, we excluded four USAID/Iraq awards from our subaward analysis because
they were recent, and implementers would have had limited time to provide subawards: (1) the $53
million contract to AECOM International Development for financial sector development awarded in July
2010, (2) a $63 million contract to DPK Consulting for access to justice awarded in September 2010, (3)
a $151 contract to MSI for administrative reform awarded in June 2011, and (4) the $75 million contract to
University Research Co. for primary health care awarded in March 2011.


                                                                                                       16
      Program Area                     Number of        Total Grant                       Audit
No.                    Implementer                                        Nationality
        and Title                      Subgrants        Amount ($)                       Required
                       AECOM
      Legislative
 9                     International         0              NA                NA            NA
      Strengthening
                       Development
Capacity Building
    National
10 Capacity            MSI                   0              NA                NA            NA
    Development

* U.S.-based nonprofit organizations undergo annual entitywide audits under the requirements of OMB
Circular No. A–133. The circular sets forth standards for obtaining consistency and uniformity among
federal agencies for the audit of nonprofit organizations expending federal awards.




                                                                                                 17
                                                                                           Appendix I



SCOPE AND METHODOLOGY
The Office of Inspector General/Iraq conducted this survey in accordance with the evidence and
documentation standards in Government Auditing Standards,5 Paragraph 7.55 and
Paragraphs 7.77 through 7.84. Those standards require that we obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions in accordance with our
review objective. We believe that the evidence obtained provides that reasonable basis.

The purpose of this survey was to (1) compile and report data on USAID/Iraq awards, (2)
compile and report data on USAID/Iraq-funded subawards, and (3) determine whether recipients
of USAID awards have complied with applicable audit requirements for their subawardees. During
the review, we performed the following steps:

    Identify and analyze all mission prime active awards as of June 30, 2011.

    Request from all of the mission‘s prime implementing partners (both contracts and
    cooperative agreements) a list of all subawards active in FY 2010 that meet the audit
    thresholds set by ADS.

    For all subawards that meet the audit threshold, inquire what the implementing partners
    have done and will do to ensure that the required subaudits are completed.

    Collect subcontract and subgrant data for FY 2010 from USAID/Iraq‘s prime recipients (both
    contracts and cooperative agreements), breaking out the data by consultants, other program
    implementation, security, and other life support.

    For each subaward (subcontractor or subgrantee), we collected the following information:
    name; nationality; address or DUNS6 number; subaward date; subcontract type; subaward
    amount; subaward final cost; subaward name and purpose; area of operations (province
    and district); start and end dates; status; and whether the subaward approval was in the
    prime award or the award modification, or received subsequent USAID approval.

    Determine requirements stemming from the Federal Funding Accountability and
    Transparency Act of 2006, Public Law 109–282.

We did not review information on the operations and expenses of maintaining the USAID/Iraq
mission. In addition, we did not review information on awards and subawards provided through
USAID‘s Office of Foreign Disaster Assistance. Survey fieldwork was performed at the
USAID/Iraq Mission in the International Zone of Baghdad.




5
 Government Accountability Office, July 2007 (GAO-07-731G).
6
  The Data Universal Numbering System (DUNS) number is a unique nine-digit identification number
provided by Dun and Bradstreet. The federal government requires that all applicants (other than sole
proprietors) for federal grants and cooperative agreements have a DUNS number. The federal
government uses the DUNS number to identify related organizations that are receiving funding under
grants and cooperative agreements, and to provide consistent name and address data for electronic grant
application systems.


                                                                                                    18
                                                                                         Appendix II



MANAGEMENT COMMENTS



                                                                                 November 7, 2011


MEMORANDUM
UNCLASSIFIED

TO:               Darren Roman, Office of the Inspector General/Iraq

FROM:             Alex Deprez, A/Mission Director

SUBJECT:          Management Comments in Response to Draft Report on Information
                  Survey of USAID/Iraq’s Awards and Subawards
                  (Report Number E-267-12-00x-S)

REFERENCE: Office of Inspector General (OIG)/Iraq Draft Report entitled “Information
           Survey of USAID/Iraq’s Awards and Subawards”.


Thank you for the opportunity to comment on the referenced draft report. USAID/Iraq concurs
with the results of the draft report and appreciates the value of the information survey as an aid to
mission management.

As indicated in the draft report, two USAID programs (Provincial Economic Growth and
Agribusiness) provided grants to local Iraq nonprofit organizations that necessitated audits, and
these organizations are in the process of implementing audit requirements. USAID/Iraq will
follow up the implementation of these two audits to ensure compliance of these organizations
with the audit requirements.

USAID/Iraq extends its thanks to OIG/Iraq for the thoroughness and cooperation exhibited
throughout the production of this report.




                                                                                                  19
